                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM                                             ,



Case Number: A04070050                                                                        11            Page 1 of 1



        We were informed' that an institution2had sought after-the-fact approval for the reallocation and
        expenditure of participant support funds.3 The award was designed to provide support for a
        foreign collaborator to come to the United States to work with the PI. The NSF program officer4
        had denied the institution's after-the-fact request to reallocation participant support funds to
        supplies. The award5 PI^, explained that the events of 911 1 made it very difficult for the foreign
        collaborator7to obtain a visa. On reviewing the financial records we found that NSF's first
        indication that there was a problem was in a request to reallocate funds that had ALREADY been
        spent for supplies. In reviewing the list of supplies that were purchased, we found that the bulk of
        the purchases occurred 2 years before the institution or the PI notified NSF. The PI had not
        requested reallocation of the funds before they were reallocated, nor had he indicated a change in
        scope for the award.

        The award conditions require prior approval from the program for change in scope and
        reallocation of budget items.* The agency Specific Requirements, require prior approval for any
        reallocation in participant support funds. In addition, the award letter states that the award is
        subject to the FDP, Agency-Specific Requirements and explicitly stated that the grantee should
        not change the scope of work or work plan, participant support costs, foreign travel costs, or
        major participants without prior consultation with and concurrence of the cognizant NSF
        Program Officer.

        We contacted the institution and it offered to, and eventually repaid NSF the funds that had been
        reallocated without permission. Accordingly, this case is closed.




        5


        6
        7

            FDP-I11 section 25(b) Recipients are required to report deviations fi-om budget and program plans, and request
            prior approvals for budget and progr&plan revisions, in accordance with this section.- 25(c)(l) states, change in
            the scope or the objective of the project requires written prior approval. Article 3 of the Agency Specific
            Requirements (711100) states that the grantee must have prior written approval for reallocation of participant
            support funds.



SF OIG Form 2 (1 1/02)
